No. 20-5646

IN THE

Supreme Court of the United States
____________

SEAN JUSTIN OWENS,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

____________

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
____________

SUPPLEMENTAL BRIEF OF PETITIONER
____________

James T. Skuthan
Acting Federal Defender
M. Allison Guagliardo, Counsel of Record
Assistant Federal Defender
Federal Defender’s Office
400 N. Tampa Street, Suite 2700
Tampa, FL 33602
Telephone: (813) 228-2715
Facsimile:
(813) 228-2562
E-mail: allison_guagliardo@fd.org

SUPPLEMENTAL BRIEF OF PETITONER
In United States v. Gary, No. 20-444, the government has asked this Court to resolve the
circuit conflict arising from the plain-error review of guilty pleas entered before Rehaif v. United
States, 139 S. Ct. 2191 (2019). But as to trials held before Rehaif, such as Petitioner Owens’s,
the government has contended that this Court’s review is not warranted “at this time,” in light of
the Fourth Circuit’s order granting rehearing en banc in United States v. Medley, 972 F.3d 399
(2020). See U.S. Memo. 2.
After the parties’ filings in Mr. Owens’s case, the Third Circuit held en banc that its plainerror review of a pre-Rehaif trial would “consider only what the government offered in evidence
at the trial.” United States v. Nasir, 982 F.3d 144, 162 (3d Cir. 2020) (en banc); see Supreme
Court Rule 15.8. The Third Circuit’s decision expressly conflicts with other circuits’ decisions,
including the Eleventh Circuit’s published decision that controlled the decision in Mr. Owens’s
case. Nasir, 982 F.3d at 164-70 & nn.23, 25 (disagreeing with the Second, Fifth, Sixth, Seventh,
Eighth, Ninth, and Eleventh Circuits, citing inter alia United States v. Reed, 941 F.3d 1018 (11th
Cir. 2019)); see Pet. App. 4a (“Our decision in Reed controls this case and forecloses Owens’s
argument.”). Unlike the Eleventh Circuit, the Third Circuit rejected the government’s request
that it, as an appellate court, find an element of the offense based on information never admitted
at trial, recognizing the Fifth and Sixth Amendment problems with such an approach. Nasir, 982
F.3d at 161-64. As the Third Circuit explained:
To rule otherwise would give us free rein to speculate whether the government
could have proven each element of the offense beyond a reasonable doubt at a
hypothetical trial that established a different trial record. But no precedent of the
Supreme Court or our own has ever sanctioned such an approach.

1

Id. at 163. And having confined its review to the trial evidence in Nasir’s case, the Third Circuit
found plain error, vacated the defendant’s conviction, and remanded for a new trial. Id. at 17076 & n.29.
The circuits are thus intractably divided on the question presented in Mr. Owens’s petition.
Mr. Owens’s case is a good vehicle to resolve this conflict. The Eleventh Circuit found the
element that Mr. Owens knew his felon status by relying on information never admitted at his trial.
Pet. App. 4a. Nasir makes clear that the Eleventh Circuit’s published decision in Reed, which
controlled the decision below in Mr. Owens’s case, is not supported by any decision of this Court.
See Nasir, 982 F.3d at 162-67; Pet. 11-12, Reed v. United States, No. 19-8679; Reply to Br. Opp.
3-5, Reed v. United States, No. 19-8679. 1 Mr. Owens accordingly maintains his request for this
Court’s review.
Respectfully submitted,
James T. Skuthan
Acting Federal Defender
/s/ M. Allison Guagliardo
M. Allison Guagliardo, Counsel of Record
Assistant Federal Defender
Federal Defender’s Office
400 N. Tampa Street, Suite 2700
Tampa, FL 33602
Telephone:
(813) 228-2715
Facsimile:
(813) 228-2562
E-mail: allison_guagliardo@fd.org

1

Because Reed controlled the decision in Mr. Owens’s case, Mr. Owens adopts the
arguments made by Petitioner Reed in his petition for a writ of certiorari and reply to the brief in
opposition.
2

